OFFICE OF AUDIT
REGION 4
ATLANTA, GA




          PK Management, LLC, Birmingham, AL

                  Office of Multifamily Housing




 2014-AT-1011                                 SEPTEMBER 22, 2014
                                                        Issue Date: September 22, 2014

                                                        Audit Report Number: 2014-AT-1011




TO:            Donna Crane, Director, Birmingham Multifamily Program Center, 4CHMLAT

               Craig Clemmensen, Director, Departmental Enforcement Center, CACB

               //signed//
FROM:          Nikita N. Irons, Regional Inspector General for Audit, Atlanta Region, 4AGA

SUBJECT:       PK Management, LLC, Did Not Ensure Adequate Accountability and
               Administration of Its Multifamily Projects


       Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of PK Management’s execution of its
Multifamily Section 8 rental assistance.

        HUD Handbook 2000.06, REV-4, sets specific time frames for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

         The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG
post its publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

       If you have any questions or comments about this report, please do not hesitate to call me
at 404-331-3369.
                                          Date of Issuance: September 22, 2014
                                          PK Management, LLC, Did Not Ensure Adequate
                                          Accountability and Administration of Its Multifamily
                                          Projects




Highlights
Audit Report 2014-AT-1011


 What We Audited and Why                   What We Found

We audited PK Management, LLC, a          PK Management received inappropriate and
management agent of four apartment        unsupported housing assistance payments for tenants
complexes in the Birmingham, AL,          who lacked properly executed and documented tenant
metropolitan area. We initiated the       eligibility forms. Specifically, the tenant eligibility
review based on a request from the U.S.   forms were not properly signed or dated by tenants or
Department of Housing and Urban           PK Management staff. Also, housing assistance
Development’s (HUD) Birmingham            payments were made for three unoccupied units, and
Office of Multifamily Housing             tenant eligibility documents were missing from tenant
Programs. Our audit objective was to      files. These conditions occurred because PK
determine whether the Section 8           Management did not (1) have adequate procedures and
housing assistance payments made to       controls, (2) provide adequate oversight, and (3)
PK Management for the four                adequately train its property managers to ensure that
multifamily complexes were eligible       they properly prepared the required HUD forms and
and supported by properly executed        supported tenants’ eligibility for housing assistance
HUD tenant eligibility forms.             payments. As a result, HUD paid more than $216,000
                                          in inappropriate housing assistance and more than
                                          $218,000 in unsupported housing assistance. Further,
 What We Recommend
                                          PK Management could not provide reasonable assurance
                                          that it used HUD funds effectively and efficiently or to
We recommend that the Director of         fully benefit program participants.
HUD’s Birmingham Office of
Multifamily Housing Programs require
PK Management to (1) reimburse
$216,749 in ineligible costs from non-
Federal funds, (2) support or reimburse
$218,676 from non-Federal funds, and
(3) develop and implement procedures
and controls to ensure compliance with
requirements. We also recommend that
the Director of the Departmental
Enforcement Center take appropriate
administrative action against the PK
Management officials.
                          TABLE OF CONTENTS

Background and Objective                                                   3

Results of Audit
      Finding: PK Management Received Inappropriate and Unsupported        4
               Housing Assistance Payments

Scope and Methodology                                                      9

Internal Controls                                                          11

Appendixes
A.    Schedule of Questioned Costs and Funds To Be Put to Better Use       12
B.    Auditee Comments and OIG’s Evaluation                                13
C.    Schedule of Tenants With Improperly Dated and Signed HUD Forms and   17
      Tenants Who Were Not in the Unit
D.    Schedule of Tenants With Missing HUD Forms                           18




                                          2
                      BACKGROUND AND OBJECTIVE

PK Management, LLC, was independently formed on January 1, 2008. PK Management
operates nationally as a management agent for other HUD multifamily properties and is
headquartered in Greenville, SC. The mission of the company is to provide safe, decent, and
sanitary housing for the poorest and most vulnerable in our society. PK Management is a
management agent for the owners of four apartment complexes in the Birmingham, AL,
metropolitan area. The four properties managed by PK Management are Forest Hills Village,
Summit Ridge, Talladega Downs, and Valley Brook Apartments.

PK Management receives Section 8 rental subsidies from HUD’s multifamily project-based
Section 8 program. This program provides subsidies for eligible families and single persons
residing in the apartment complexes under a housing assistance payments contract. All of the
complexes are 100 percent project-based Section 8 properties except Valley Brook, which has
213 of its 240 units assisted by Section 8.

HUD paid nearly $17 million in housing assistance to PK Management from November 2009 to
November 2013 for the four properties as stated below.

                                     Housing assistance           Number of
            Apartment project        payment received            assisted units
            Forest Hills Village        $3,663,543                    152
              Summit Ridge              $5,456,722                    200
             Talladega Downs            $1,412,353                    100
               Valley Brook             $6,425,250                    213
                  Totals               $16,957,868                    665

The audit objective was to determine whether the Section 8 housing assistance payments made to
PK Management for the four multifamily complexes were eligible and supported by properly
executed HUD tenant eligibility forms.




                                               3
                                      RESULTS OF AUDIT


Finding: PK Management Received Inappropriate and Unsupported
Housing Assistance Payments
PK Management received inappropriate and unsupported housing assistance payments for tenants
who lacked properly executed and documented tenant eligibility forms. Specifically, the tenant
eligibility forms were not properly signed or dated by tenants or PK Management staff. Also,
housing assistance payments were made for three unoccupied units, and tenant eligibility
documents were missing from tenant files. These conditions occurred because PK Management
did not (1) have adequate procedures and controls, (2) provide adequate oversight, and (3)
adequately train its property managers to ensure that they properly prepared the required HUD
forms and supported tenants’ eligibility for housing assistance payments. As a result, HUD paid
more than $216,000 in inappropriate housing assistance and more than $218,000 in unsupported
housing assistance. Further, PK Management could not provide reasonable assurance that it used
HUD funds effectively and efficiently or to fully benefit program participants.


    PK Management Did Not
    Properly Execute and
    Document Eligibility Forms

                 We reviewed a statistical sample of 80 tenants to determine whether PK
                 Management properly executed and documented the HUD tenant eligibility forms.
                 The review revealed exceptions for 57 1 of the 80 tenants in the sample. PK
                 Management received

                      •   More than $216,000 in inappropriate housing assistance payments for 37
                          of the 80 tenants due to improperly signed or dated HUD forms and
                          housing assistance payments for unoccupied units (see appendix C).

                      •   More than $218,000 in unsupported housing assistance payments for
                          another 37 of the 80 tenants because it did not maintain the required HUD
                          forms in the tenant files (see appendix D).

                 PK Management failed to ensure that signatures were properly obtained on the
                 Notice and Consent for the Release of Information (form HUD-9887), Owner’s
                 Certification of Compliance with HUD’s Tenant Eligibility and Rent Procedures
                 (form HUD-50059), and Owner’s Certification of Compliance with HUD’s
1
  The 57 tenant files with exceptions included 37 with inappropriate payments and 37 with unsupported payments.
However, 17 tenant files were included in both the inappropriate and unsupported category. This occurred because
the HUD forms were required annually and sometimes at other intermittent points during the year. During particular
time intervals, the 17 tenants’ HUD forms were signed and dated improperly resulting inappropriate payments.
During other time intervals, HUD forms were missing from the 17 tenants’ files resulting in unsupported payments.


                                                        4
                Tenant Eligibility and Rent Procedures-Partial Certification (form HUD-50059-
                A) before submitting the tenant data to the contract administrator or HUD as
                required by HUD Handbook 4350.3, REV-1, CHG-3. 2

                Of the 80 tenant files, 28 had improper signatures on the HUD forms. We
                interviewed 80 tenants and showed them their signed and dated forms HUD-9887,
                -50059, and -50059-A from the tenant files. We asked them to verify their
                signatures and dates on these forms. Twenty tenants confirmed that the signatures
                on the forms were not their signatures. In addition, 13 3 of the 80 tenant files
                contained HUD forms with PK Management property manager signatures that
                were not their own. In one instance, a property manager’s signature and date on
                the HUD forms predated the individual’s employment with PK Management.

                Of the 80 tenants 14 confirmed that the HUD forms in the tenant files were
                improperly dated. The date was either not the date on which the tenant signed the
                document, or the date on which the tenant signed was written over by someone
                else to show an earlier date or had been altered to show an earlier date.

                Eleven tenants stated that the PK Management property managers instructed them
                to sign documents that were already dated with an earlier date or write in a date
                earlier than the actual signing date. However, only nine tenants were able to
                confirm the improper dating by identifying the particular documents that were
                improperly dated. Two tenants stated that they were instructed to sign the HUD
                forms and leave the dates blank. Three tenant files contained HUD forms with
                dates that were altered to show an earlier date.

                PK Management also received housing assistance payments for three units that
                were not occupied by the tenants when it received the payments. For example,
                one tenant moved out of her unit in October 2012 and returned in December 2013.
                The tenant stated that she moved out because her ceiling fell in and PK
                Management would not complete the necessary repairs. PK Management was
                made aware of the collapsed ceiling and continued to receive more than $7,000 in
                housing assistance payments while the unit was unoccupied.

                In addition, PK Management did not properly document the tenant forms HUD-
                9887, -50059, and -50059-A as required by HUD Handbook 4350.3, REV-1,
                CHG-3. 4 The HUD forms required to establish the eligibility of the tenant for
                assistance were missing from 37 of the 80 tenant files (see appendix D).



2
  HUD Handbook 4350.3, REV-1, CHG-3, paragraph 5-23(A);
  Handbook 4350.3, REV-1, CHG-3, section 9-5A, paragraphs 4b and 4c;
  HUD Handbook 4350.3 REV-1, CHG-3, paragraph 7-17(F)
3
  Five of the thirteen also had improper tenant signatures.
4
  HUD Handbook 4350.3, REV-1, CHG-3, paragraph 5-23(B);
  HUD Handbook 4350.3, REV-1, CHG-3, section 9-2, paragraph 4b;
  HUD Handbook 4350.3, REV-1, CHG-3, paragraph 7-17(E)


                                                     5
PK Management Lacked
Adequate Administration of
Property Managers

           PK Management lacked adequate procedures and controls and did not provide
           adequate oversight or adequately train its property managers to ensure that they
           properly prepared and maintained the HUD forms required to support the
           eligibility of tenants whose rent was subsidized by housing assistance payments.
           Property managers that worked for PK Management while the audit was ongoing
           attributed the inappropriate signatures, dates, and missing documents to PK
           Management’s inconsistent approach to managing the properties and its lack of
           adequate training and policies and procedures. A former property manager stated
           that the regional vice president, the regional compliance director, and compliance
           reviewers instructed her to sign documents and date them with earlier dates to
           make it appear that the documents had been executed in a timely manner, even if
           the dates she wrote preceded her employment at PK Management. The former
           property manager also stated that they instructed her to have tenants sign
           documents with dates earlier than the date of the actual signing when documents
           were missing.

           The property managers did not have access to PK Management’s policies and
           procedures. PK Management’s attorney stated that the property managers could
           access the procedures online. However, the property managers were unable to
           provide the procedures when requested. One property manager said that she was
           not aware of any policies or procedures to ensure that the tenants are living in the
           units.

           PK Management performed an internal review of its Summit Ridge apartments
           and submitted its results to HUD’s Birmingham Office of Multifamily Housing
           Programs on December 13, 2012. The internal review identified annual
           questionnaires, verifications, and forms that were not completely filled out, not
           initialed when required, not signed, and not dated. PK Management also found
           that forms were missing from tenant files and identified housing assistance
           payments for periods when tenants did not occupy the units.

           PK Management’s attorney stated that PK Management did not exercise oversight
           to ensure that it had taken proper corrective actions. The attorney also stated that
           PK Management had frequent turnover of its property managers and often used
           temporary employees until it could hire full-time property managers. The
           problems identified by PK Management’s internal review generally remained
           uncorrected due to its use of the temporary employees and the newly hired
           property managers, coupled with a lack of both management oversight and
           training necessary for its property managers to perform their jobs. As a result, the
           tenant records were not a maintained as required and temporary employees and
           property managers created and executed documents by signing the tenant
           signatures and improperly dating forms.

                                             6
                    During the audit, PK Management began efforts to review and revise its policies
                    and procedures and provide training to property managers but did not complete
                    them before the end of our site visit. Therefore, we could not verify the
                    procedures or training provided to the property managers.

    Future Savings Were Projected


                    In projecting results, we estimated that inappropriate housing assistance payments
                    of approximately $175,000 could be used more efficiently if the deficiencies
                    identified by the audit are addressed and our recommendations are implemented. 5

    Conclusion

                    As a result of PK Management’s procedural and control weaknesses, HUD paid
                    $216,749 in inappropriate housing assistance and $218,676 in unsupported housing
                    assistance for 57 of 80 tenants reviewed. Therefore, PK Management could not
                    provide HUD with reasonable assurance that it used program funds effectively and
                    efficiently or to fully benefit program participants. A projection of the sample
                    results determined that HUD has the opportunity to better use $174,995 in housing
                    assistance payments over the next 12 months for other eligible activities consistent
                    with multifamily requirements if our audit recommendations are implemented.

    Recommendations

                    We recommend that the Director of HUD’s Birmingham Office of Multifamily
                    Housing Programs require PK Management to

                    1A.      Reimburse its project $216,749 from non-project funds for the ineligible
                             housing assistance payments.

                    1B.      Support or reimburse its project $218,676 from non-project funds for housing
                             assistance payments that lacked supporting documentation.

                    1C.      Develop and implement procedures and controls to ensure compliance with
                             requirements, to include but not be limited to procedures and controls to
                             ensure that (1) housing assistance payments are eligible and supported, (2)
                             appropriate documentation is obtained and maintained, and (3) property
                             managers are adequately trained on the program requirements. By doing so,
                             we estimate an annual savings of $174,995 in housing assistance payments.




5
    Our methodology for this estimate is explained in the Scope and Methodology section of this report.


                                                           7
1D.    Develop and implement policies to monitor its property managers to ensure
       adequate administration of the program.
1E.    Provide adequate training to its property managers on the program
       requirements to ensure that housing assistance payments are eligible and
       supported.

We also recommend that the Director of the Departmental Enforcement Center

1F.    Take appropriate administrative actions against PK Management’s senior
       managers for directing property managers to sign and date documents
       improperly.




                                8
                          SCOPE AND METHODOLOGY

We performed the audit from November 2013 through June 2014 at four PK Management
properties located in the Birmingham, AL, metropolitan area. The four properties were Forest
Hills Village, Summit Ridge, Talladega Downs, and Valley Brook Apartments. The audit
generally covered the period November 1, 2009, through January 31, 2014. We adjusted the period
when necessary.

To accomplish our audit objective, we

   •   Reviewed applicable laws, HUD regulations, and other HUD program requirements and
       monitoring reports relating to the use of Section 8 housing assistance payments;

   •   Reviewed applicable PK Management controls and policies and procedures used to
       administer the Section 8 housing assistance program;

   •   Interviewed HUD officials, PK Management personnel, and 80 sample tenants at the 4
       apartment projects;

   •   Interviewed personnel and reviewed records from Navigate, a HUD contractor that provides
       Section 8 contract administration services for the four properties; and

   •   Reviewed tenant program files for the 80 sample tenants.

We developed a stratified random sample of 80 randomly selected multifamily Section 8 tenants
who had received nearly $1.5 million in housing assistance payments as of January 31, 2014. We
selected the random sample from a universe of 625 active tenants residing in all four apartment
projects as of January 31, 2014, who received more than $10 million in housing assistance
payments. We found a highly stratified sample size of 80 to be the best size for providing
meaningful audit results.

The audit evaluated the payment history records for the 80 tenants, whose timeframes for
payment histories varied based on when each tenant started to receive housing assistance. There
were three cases in which the tenant was not available to the audit team, and a randomly selected
spare record was used. Each spare came from the properly designated stratum. Hence, the
sampling weights did not change. Because of the unique nature of the audit questions posed, all
record payment history amounts were audited for both inappropriate and unsupported amounts
for each tenant. Complete payment histories were audited to account for potential irregularities
in initial eligibility certification, annual recertification requirements, and potential overpayments
at beginning and ending periods for each tenant receiving housing assistance.

Based on these results, a monthly average of inappropriate payments was calculated by dividing
(as applicable) the total amount of ineligibly disbursed funds by the number of months in which
a tenant in the audit universe received housing assistance. This process was completed to


                                                  9
calculate an annualized future amount of $174,995 6 in funds to be put to better use if the audit
deficiencies are addressed by PK Management.

We estimated the average monthly amount of inappropriate payments by tenant disbursed to be
$184. Deducting for statistical variance to accommodate the uncertainties inherent in statistical
sampling, we can say, with a one-sided confidence interval of 95 percent, that the average
amount per tenant is $23. Extrapolating this amount to the 625 audit universe and extending it
for 1 year and after deducting for the margin of error, we can say that if the deficiencies by the
audit are addressed, at least $174,994 in inappropriate housing assistance payments could be put
to better use.

We relied in part on data maintained in HUD’s system and on data maintained by Navigate, HUD’s
Section 8 contract administrator. Although we did not perform detailed assessments of the data, we
performed minimal levels of testing and found the data to be adequately reliable for our purposes.
Testing for reliability included comparison of the computer-processed data to housing assistance
payment vouchers requesting payment. We also confirmed the computer-processed data for active
tenants by conducting interviews with those tenants.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




6
  At least $174,994.92 in housing assistance payments could be put to better use over the next 12 months if our
recommendations are implemented.


                                                         10
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

               •      Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               •      PK Management lacked adequate procedures and controls, oversight, and
                      training to ensure that housing assistance payments were eligible and
                      supported (see finding).


                                                 11
                                       APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

 Recommendation                           Unsupported      Funds to be put
                       Ineligible 1/
     number                                   2/           to better use 3/
              1A             $216,749
              1B                               $218,676
              1C           _________          ________            $174,995
            Total            $216,749          $218,676           $174,995


1/    Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
      that the auditor believes are not allowable by law; contract; or Federal, State, or local
      policies or regulations.

2/    Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
      or activity when we cannot determine eligibility at the time of the audit. Unsupported
      costs require a decision by HUD program officials. This decision, in addition to
      obtaining supporting documentation, might involve a legal interpretation or clarification
      of departmental policies and procedures.

3/    Recommendations that funds be put to better use are estimates of amounts that could be
      used more efficiently if an Office of Inspector General (OIG) recommendation is
      implemented. These amounts include reductions in outlays, deobligation of funds,
      withdrawal of interest, costs not incurred by implementing recommended improvements,
      avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
      that are specifically identified. In this case, the $174,995represents the housing
      assistance payments that would not be made over the next year if HUD implements
      recommendation 1C.




                                              12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                Auditee Comments




Comment 1




                        OIG Evaluation of Auditee Comments




                                       13
Comment 2




Comment 1



Comment 3




Comment 3




            14
Comment 3




            15
                         OIG Evaluation of Auditee Comments

Comment 1   PK Management stated that it will work with the program office to provide a
            satisfactory reimbursement plan if the auditee is not able to provide support for
            the questioned costs. PK Management also stated that it would like the
            opportunity to review the tenant files in question and then it would be able to
            respond more specifically and hopefully provide additional support. On August
            28, 2014, we provided PK Management’s Regional Vice President the identity of
            each tenant file we reviewed that had improper and missing HUD forms and the
            deficiencies cited.

Comment 2   PK Management stated it would appreciate the opportunity to review statements
            made to us during the audit that senior managers at PK Management had
            instructed property managers to improperly sign and date documents. We will
            work with PK Management to provide this information.

Comment 3   We acknowledge that PK Management began efforts to review and revise its
            policies and procedures and provided training to property managers during the
            audit. PK Management stated it has updated training materials to contain a
            “Proper Corrections” policy and provided new training to site employees and will
            gladly provide and review these materials with the program office for any
            additional improvements. Since, it did not complete the policies before the end of
            our site visit, the HUD Birmingham Office of Multifamily Housing will be
            responsible for verifying whether PK Management’s efforts address the
            recommendation sufficiently.




                                            16
Appendix C

SCHEDULE OF TENANTS WITH INAPPROPRIATELY DATED
AND SIGNED HUD FORMS AND TENANTS WHO WERE NOT
                  IN THE UNIT 7
                                                     Improperly        Improperly       Improperly
                 Tenant                              dated HUD         signed HUD      paid for tenant
                 number      Apartment project         forms              forms          not in unit       Ineligible
                    1        Summit Ridge                 x                 x                                $ 3,978
                    8        Summit Ridge                                   x                               $ 2,545
                    9        Summit Ridge                  x                x                               $ 3,970
                   10        Summit Ridge                  x                x                               $ 11,168
                   18        Summit Ridge                                   x                               $ 7,308
                   24        Summit Ridge                  x                x                               $ 3,316
                   25        Summit Ridge                                   x                               $ 9,150
                   27        Valley Brook                                   x                               $ 8,800
                   36        Summit Ridge                                                      x            $ 7,513
                   38        Valley Brook                  x                                   x            $    392
                   45        Summit Ridge                                   x                               $ 7,388
                   50        Valley Brook                                   x                               $ 15,636
                   51        Forest Hills                                   x                               $ 3,466
                   52        Forest Hills                                   x                               $    751
                   53        Forest Hills                                   x                               $ 3,339
                   54        Forest Hills                                   x                               $ 2,842
                   55        Forest Hills                                   x                               $ 5,553
                   56        Forest Hills                                   x                               $ 1,208
                   58        Forest Hills                                   x                               $ 2,120
                   61        Forest Hills                                   x                               $ 9,288
                   62        Forest Hills                  x                x                               $ 9,568
                   63        Forest Hills                  x                x                  x            $ 2,484
                   64        Forest Hills                                   x                               $ 4,980
                   65        Forest Hills                                   x                               $ 3,795
                   66        Forest Hills                                   x                               $ 2,475
                   67        Forest Hills                                   x                               $ 25,477
                   68        Forest Hills                                   x                               $ 5,810
                   70        Talladega Downs               x                                                $    797
                   72        Talladega Downs               x                                                $ 4,382
                   73        Talladega Downs               x                                                $ 3,600
                   74        Talladega Downs               x                                                $ 1,230
                   75        Talladega Downs               x                                                $ 5,904
                   76        Talladega Downs                                x                               $ 5,223
                   77        Talladega Downs                                x                               $ 7,425
                   78        Talladega Downs                                x                               $ 10,735
                   79        Talladega Downs              x                                                 $ 4,218
                   80        Talladega Downs              x                                                 $ 8,915
                  Totals             37                   14               28                  3            $216,749

7
    This table represents the 37 tenants in the sample who had inappropriate forms and housing assistance paid for vacant units.

                                                                  17
Appendix D

     SCHEDULE OF TENANTS WITH MISSING HUD FORMS 8
                                                                                   Missing
                                                  Missing           Missing         form
             Tenant         Apartment           form HUD-         form HUD-         HUD-         Unsupported
             number           project              9887              50059         50059A           costs
                6        Summit Ridge                                  x                            $ 2,399
                9        Summit Ridge                                  x                            $ 4,518
               10        Summit Ridge                                  x                            $     588
               12        Summit Ridge                                  x                            $ 2,586
               13        Summit Ridge                                  x                            $ 8,350
               14        Summit Ridge                                  x                            $ 3,774
               15        Summit Ridge                                  x                            $ 1,839
               16        Summit Ridge                                  x                            $ 3,510
               17        Summit Ridge                                  x                            $ 10,002
               19        Summit Ridge                                  x                            $ 8,609
               23        Summit Ridge                                  x                            $     728
               29        Valley Brook                 x                                             $ 6,875
               40        Valley Brook                 x                                             $ 7,902
               41        Valley Brook                 x                x               x            $ 13,057
               43        Valley Brook                 x                                             $ 6,930
               45        Summit Ridge                 x                x               x            $ 7,884
               47        Valley Brook                 x                                x            $ 8,133
               48        Valley Brook                 x                x               x            $ 15,408
               49        Valley Brook                 x                x               x            $ 15,582
               54        Forest Hills                 x                x                            $ 1,845
               57        Forest Hills                                  x                            $ 5,472
               58        Forest Hills                 x                                             $ 3,778
               59        Forest Hills                 x                x               x            $ 11,418
               62        Forest Hills                 x                                             $ 5,292
               63        Forest Hills                 x                x                            $ 6,468
               65        Forest Hills                 x                                             $ 3,320
               66        Forest Hills                 x                x                            $ 3,188
               69        Talladega Downs              x                                             $ 1,208
               70        Talladega Downs              x                                             $ 6,995
               71        Talladega Downs              x                                             $ 4,627
               72        Talladega Downs              x                                             $ 1,745
               74        Talladega Downs              x                x                            $ 5,933
               76        Talladega Downs              x                x               x            $ 7,795
               77        Talladega Downs              x                x                            $ 5,516
               78        Talladega Downs              x                                             $ 4,018
               79        Talladega Downs              x                x                            $ 5,584
               80        Talladega Downs                               x                            $ 5,800
              Totals             37                                                                   $218,676


8
 This table represents the 37 tenants in the sample who had deficiencies regarding missing forms HUD-9887, -50059, and -
50059A.

                                                             18
